<html>
<title> - INVESTING IN AN EFFECTIVE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 112-682]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-682

                       INVESTING IN AN EFFECTIVE
                           FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                  U.S. GOVERNMENT PRINTING OFFICE

76-069 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Christine K. West, Deputy Staff Director
                       Bryan G. Polisuk, Counsel
                        Kara C. Sybenga, Counsel
               Rachel R. Weaver, Minority Staff Director
                          Lisa Neuder, Counsel
                      Lauren Corcoran, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
    Senator Johnson..............................................     3
Prepared statement:
    Senator Akaka................................................    33
    Senator Johnson..............................................    35

                               WITNESSES
                     Wednesday, September 19, 2012

Hon. John Berry, Director, Office of Personnel Management........     5
Hon. Gene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office..........................     7
Colleen M. Kelley, President, National Treasury Employees Union..    19
J. David Cox Sr., President, American Federation of Government 
  Employees, AFL-CIO.............................................    21
Max Stier, President and CEO, Partnership for Public Service.....    23
William L. Bransford, General Council, Senior Executives 
  Association, Representative of the Government Managers 
  Coalition......................................................    25

                     Alphabetical List of Witnesses

Berry, Hon. John:
    Testimony....................................................     5
    Prepared statement...........................................    37
Bransford, William L.:
    Testimony....................................................    25
    Prepared statement...........................................    98
Cox, J. David Sr.:
    Testimony....................................................    21
    Prepared statement...........................................    75
Dodaro, Hon. Gene L.:
    Testimony....................................................     7
    Prepared statement...........................................    44
Kelley, Colleen M.:
    Testimony....................................................    19
    Prepared statement...........................................    67
Stier, Max:
    Testimony....................................................    23
    Prepared statement...........................................    88

                                APPENDIX

Questions and responses for the Record from Mr. Berry............   106
Statement from the International Federation of Professional and 
  Technical Engineers (IFPTE)....................................   116

 
                       INVESTING IN AN EFFECTIVE
                           FEDERAL WORKFORCE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2012

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
Room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Johnson.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia will come to order.
    Aloha and thank you all for being here today as the 
Subcommittee examines a number of issues that are vitally 
important to our Federal workforce. We will discuss the 
progress that has been made in many agencies and the steps we 
must take to make sure the Federal Government is effective and 
efficient now and for future generations.
    The Federal Government is facing some of the most complex 
challenges in our Nation's history and dealing with serious 
budget constraints. To do more with less, it is critical that 
we have a first class Federal workforce. The government must 
make the proper investments in its employees and take the steps 
necessary to recruit, retain, and develop its talent.
    The media often focuses on what goes wrong in government, 
but today I want to take a moment to recognize the important 
work of two million civil servants who provide essential 
services to the American people. The tragic deaths of 
Ambassador Stevens and three other civil servants remind us of 
the sacrifices public servants make on our behalf, 
unfortunately and occasionally the ultimate sacrifice, and we 
certainly think of them and their families and their honor to 
the country with their lives.
    Over the years, I have met and worked with so many 
inspiring men and women who work hard every day to serve this 
great country. Our country is stronger, and that is thanks to 
their service. It has truly been my privilege to support them 
and move our government forward.
    I am pleased that we have made progress in a number of 
areas that have been priorities for me and for this 
Subcommittee, including enacting and implementing the Non-
Foreign Area Retirement Equity Assurance Act and the Telework 
Enhancement Act, as well as making important strides in 
reforming the Federal hiring and security clearance processes. 
We are also doing a better job matching Federal employment 
opportunities to the important skills of veterans and people 
with disabilities and in making sure all employees get the 
training they need to help agencies meet critical missions. 
But, as you know, there is more work to be done.
    As many of you know, I will be retiring at the end of this 
year and this will be my last hearing as Chairman of this 
Subcommittee. It has been a great honor for me to serve as 
Chairman of this Subcommittee and work on issues that, although 
they may not always make headlines, are crucial to improving 
the lives of our citizens.
    Throughout my career in Congress, I have used the spirit of 
aloha to get things done. In Hawaii, the Aloha Spirit is a 
feeling that we need to bring people together and solve 
problems. I may not always have the same priorities or 
perspectives as my Republican counterparts, but I always try to 
look for common ground, and we have. Recently, I have been 
working closely with Representative Issa to pass the 
Whistleblower Protection Enhancement Act (WPEA), which has been 
a priority for me for years, before Congress adjourns.
    Over the years, I have often said that I believe that the 
Federal Government, as the Nation's largest employer, has a 
responsibility to lead by example, to be a model employer. It 
is my hope that the work of this Subcommittee has moved us 
toward that goal.
    I love serving in Congress and I have been so privileged to 
work closely with the witnesses here today to address the needs 
of our country and the Federal workforce, and I am so glad to 
be working today with my partner here, a Senator who has worked 
hard with me since he has been elected. Ron has been such a 
good partner in what we are trying to do here for the people of 
our country.
    Today, we have two panels of star witnesses, including some 
of the most dedicated, effective leaders in Federal workforce 
issues. I know each of you cares deeply about our Nation and 
these issues and I want to thank you for being here today and 
for the work you do every day to improve our government and our 
workforce. So I look forward to your testimony.
    I want to say thank you very much for these leis for all of 
you. I just want to be sure you know that a lei like this is 
very significant to a person from Hawaii. This is not any lei. 
It is a special lei because of its makeup. This is called 
maile, the leaves, taken from vines, and the flowers are kukuna 
o ka la, which is ``the rays of the sun'' in Hawaiian. So, 
together, this makes it an important lei. Normally, they give a 
lei like this to the officials, and I must say that this is an 
honor to receive one like this and I thank John Berry for this 
lei and for his good wishes well and honor that they give me 
here.
    And so I would like to at this time thank our star 
witnesses so much for all the help you have given me while I am 
here. This has made a huge difference.
    And now, I would like to call on Senator Johnson, my 
partner, for any statement he may have.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Well, thank you, Mr. Chairman, and aloha.
    Senator Akaka. Aloha.
    Senator Johnson. As you mentioned, today is a very 
memorable day for you because this is your last Subcommittee 
hearing in terms of when you will be Chairman, and for me, 
also, because it will be the last time I will have the 
privilege of serving with you on this Subcommittee before you 
retire.
    In the Aloha Spirit that you have brought to not only the 
Senate but your service here in Congress for many years, I 
would like to start this hearing by decorating you further with 
my own lei, out of affection, appreciation, and deep respect 
for your service to the country.
    Senator Akaka. Thank you so much. [Applause.]
    Senator Johnson. That color combination goes well together. 
[Laughter.]
    Senator Akaka. Yes.
    Senator Johnson. But I just want to say that when I started 
in the U.S. Senate less than 2 years ago, Senator Akaka gave me 
a warm and friendly welcome to the Homeland Security and 
Governmental Affairs Committee (HSGAC). His cheerful smile, 
encouraging attitude, and genuine desire to make a difference 
has been a hallmark of his many years of service to this 
country. The affection we all have for Senator Akaka is 
heartfelt and is well deserved.
    During my time here, I have always enjoyed joining Senator 
Akaka at the Senate's Wednesday morning prayer breakfasts. Many 
of you do not know this, but Chairman Akaka started the 
tradition of singing a hymn at the beginning of every prayer 
breakfast. Everyone in attendance looks forward to hearing 
Senator Akaka's explanation of the hymn's history and hearing 
his fine voice lead us in singing. Your presence at the weekly 
prayer breakfast will be sorely missed.
    Senator Akaka has demonstrated his commitment to public 
service throughout his life. His entry into public service 
began during World War II, where he served in active duty in 
the U.S. Army. From there, Senator Akaka continued his service 
in the State of Hawaii's Department of Education before first 
being elected to the U.S. House of Representatives in 1976. 
Today, 36 years later, it is clear to see the countless 
contributions that Senator Akaka has made during his many years 
of service.
    As one of the longest-serving Senators currently in the 
Senate, Senator Akaka has forged many friendships, including 
with a number of U.S. Presidents. He served with every 
President since Jimmy Carter and has maintained friendships 
with many of them. Senator Akaka has strong ties across the 
aisle, from his common bond with President George H.W. Bush as 
a World War II veteran, to playing many rounds of golf with 
President Clinton, and apparently those things went on quite a 
while.
    As Chairman of the Subcommittee on Oversight of Government 
Management (OGM), the Federal Workforce, and the District of 
Columbia, it has been his goal to attract, retain, and motivate 
a skilled Federal workforce. I applaud the work Senator Akaka 
has done to ensure that Federal employees are protected from 
retaliation when they disclose government waste, fraud, and 
abuse.
    Senator Akaka has also worked hard to ensure that the 
Federal Government process retirement claims in a timely and 
efficient manner. He has advocated for the modernization of 
information technology (IT) infrastructure to achieve this 
goal. These are common sense advancements that are good for the 
Federal workforce and good for the American taxpayer.
    It is Senator Akaka's ``Aloha Spirit'' that has earned him 
the recognition of many organizations. Time will not allow me 
to name every award he has received, but I would like to 
mention just a few.
    In 1999, he received the Adam Smith Medal of Distinction 
from the National Council on Economic Education for his work in 
improving our youth's education and economic principles.
    In 2008, he received the Inspirational Leadership Award 
from the Military Order of the Purple Heart for his dedication 
to our Nation's veterans.
    And in 2011, he received the Public Service Award from the 
Government Accountability Project for his work in protecting 
the rights of whistleblowers.
    Senator Akaka, all too often, the public spotlight is on 
the differences between Members of Congress, but your record in 
Congress points to a different reality. Your tireless efforts 
to streamline Federal processes and making agencies more 
accountable have found broad bipartisan support. In other 
words, the Aloha Spirit has worked.
    Senator Akaka, I know you will be missed by all of your 
colleagues here in Congress, every staff member, and everyone 
who has had the pleasure of working with you here in Washington 
and throughout America during your dedicated years of service. 
In particular, I will miss you. During our short time of 
service together, you have been most kind and gracious to me 
and I will always consider you my friend.
    I know you are looking forward to spending more time with 
your family, including your 15 grandchildren and 15 great-
grandchildren. I cannot think of a more fitting, satisfying, 
and well deserved retirement. So I would like to extend my 
appreciation and congratulations to you and your family and 
wish you all the best in the years ahead. Aloha.
    And I guess just in terms of mentioning family, I would 
like to point out that my wife, Jane, my sister, Lynn, and my 
sisters-in-law Kathy and Mary are here. They also are saying 
aloha to you, as well.
    So at this point, I would like to welcome our witnesses, 
and it is a star cast, I think two of our favorite witnesses, 
Director Berry and Gene Dodaro. I would like to thank you for 
being here. I look forward to hearing your testimony on how we 
can continue to implement and improve upon the many reforms 
that Chairman Akaka has worked so tirelessly on. So thank you.
    Senator Akaka. Thank you very much. In Hawaii, we say 
mahalo, which is thanks. It is not enough, so we added the word 
``nui,'' and ``nui'' in Hawaiian means big and huge. So to say 
mahalo nui is a huge thanks. But we do not think that is 
enough, so we added another word, ``loa,'' which is long, like 
Mauna Loa, which is a long mountain. And so I want to say 
mahalo nui loa, Ron, for your friendship and your work here, as 
well. I certainly am so happy your family can be here, as well, 
and want to say aloha to you, as well.
    And thank you so much for the kind words. There is no 
question, I will miss all of this and the friendships and the 
work here, but I know you will carry it on and continue to help 
our country in the future. And so thank you so much, Ron--
    Senator Johnson. Thank you.
    Senator Akaka [continuing]. You and your staff.
    So at this time, I welcome John Berry, Director of the 
Office of Personnel Management (OPM), and Mr. Gene Dodaro, 
Comptroller General of the United States and head of the 
Government Accountability Office (GAO). These gentlemen have 
been terrific in continuing to help our country and especially 
the people who work in it. So it is always good to see both of 
you. I want to share my aloha with you and wish you well in 
your work in the future, as well. Thank you so much for being 
with us here today.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so I ask you to please stand and raise your 
right hands.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Berry. I do.
    Mr. Dodaro. I do.
    Senator Akaka. Thank you very much. Let the record show 
that our witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record, and I would like to 
remind you to please limit your oral remarks, as you normally 
do anyway.
    Director Berry, will you please proceed with your 
testimony.

   TESTIMONY OF HON. JOHN BERRY,\1\ DIRECTOR, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Berry. Aloha, Chairman Akaka-- 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berry appears in the appendix on 
page 37.
---------------------------------------------------------------------------
    Senator Akaka. Aloha.
    Mr. Berry [continuing]. And mahalo for inviting me and Gene 
to discuss with you the state of our Federal workforce today. I 
am particularly honored to be invited to testify today. As you 
have mentioned, this will be your last hearing.
    Mr. Chairman, I have been very fortunate to have worked 
with you since 1985, when I was a very junior staffer for 
Congressman Steny Hoyer and the two of you served on the House 
Appropriations Committee. During that time, I witnessed 
firsthand your commitment to our Federal workers and ensuring 
that the Federal Government was an employer of choice. As long 
as I have known you, you have been a champion of good 
management practices and employee rights. You have encouraged 
labor-management partnerships. You have improved whistleblower 
protections. You have ensured fair pay and benefits, promoted 
domestic partner benefits. You have increased telework in our 
government, pushed for hiring reform, enhanced the diversity of 
our workforce, expanded our financial literacy, and 
strengthened employee training and mentoring programs.
    For example, I know how hard you have worked to ensure that 
Federal workers outside of the DC area are provided with the 
same benefits and protections as those closest to this 
building. Your work with Federal executive boards across the 
United States has ensured that we all remain mindful that the 
bulk of government work, approximately 88 percent of it, is 
carried on outside of the beltway. And Federal employees live 
and work in every county of the United States.
    I know you are particularly proud of your work on the Non-
Foreign Area Retirement Equity Assurance Act, which simply 
provides equity in retirement benefits for Federal workers in 
Hawaii, Alaska, and our United States Territories.
    I was also deeply honored to work with you, Mr. Chairman, 
on an issue that I know is extremely close to your heart, the 
reconciliation process between the Federal Government and our 
Native Hawaiians. Following the passage of your Native Hawaiian 
Apology Resolution, President Clinton asked me to represent our 
government in a series of formal hearings throughout the State 
of Hawaii, where more than 40 hours of public testimony were 
heard on every island. In October 2000, the Department of 
Justice (DOJ) and the Department of Interior (DOI) released our 
report entitled, ``From Mauka to Makai: The River of Justice 
Must Flow Freely,'' which summarized our meetings and detailed 
the history of Native Hawaiians and the need for further 
reconciliation through the establishment of a government-to-
government relationship. I know that this report aided in the 
development of your bill to establish that relationship, and I 
am extremely honored to have been a partner with you in this 
effort.
    I have also enjoyed working with you on another issue that 
I know is dear to your heart, and that is ensuring that our 
veterans get the benefits that they have earned and deserve. As 
one of only three remaining World War II veterans in the 
Senate, and as the former Chairman of the Senate Veterans 
Affairs Committee, you have made the care and services provided 
to our veterans one of your top priorities. I am very proud 
that OPM has been able to do its part by improving employment 
opportunities for our veterans and providing assistance to 
veterans and their families who are seeking information about 
Federal employment.
    I do not know if you remember, Mr. Chairman, but at my 
confirmation hearing for this job, I promised you and the 
Members of this Subcommittee that we would do a better job in 
hiring veterans in our civilian agencies. In 2009, veterans 
comprised 24 percent of our total new hires in the government. 
In 2011, they comprised 28.3 percent. That is the highest 
percentage since we have been keeping records on veterans' 
employment.
    Mr. Chairman, in your speeches, and as Senator Johnson has 
noted, you often begin by greeting crowds, as you did here 
today, with the word ``aloha,'' which the audience may not know 
means love. Your love for others has been as constant as the 
North Star, and it has made you one of the most beloved members 
of our U.S. Senate. In an age where partisanship is the norm, 
you stand out by sharing your aloha with everyone and serving 
as an example to all of us of what we can be if we work with 
aloha in our hearts.
    The motto for the State of Hawaii is ``Ua Mau ke Ea o ka 
Aina I ka Pono, ``may the life of our land be perpetuated in 
righteousness.'' Mr. Chairman, you are a great leader. Your 
righteousness has improved not only the State of Hawaii, but 
the United States of America. The people of Hawaii, all of our 
Federal workforce, and I personally want to say a very big 
thank you from the bottom of my heart for everything that you 
have done for this Nation. We wish you so much aloha as you 
begin this next chapter of your life. You will be sorely 
missed. God bless you, sir.
    Senator Akaka. Thank you so much. Mahalo nui loa for your 
statement. It is a great honor for me to receive that from you. 
I thank God for you and all those that work with you, your 
staff, as well. You make a huge difference. Thank you.
    Mr. Dodaro, will you please proceed with your statement.

TESTIMONY OF HON. GENE L. DODARO,\1\ COMPTROLLER GENERAL, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you and Senator Johnson. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the appendix on 
page 44.
---------------------------------------------------------------------------
    Before I turn to the subject of today's hearing, though, I 
would like to reiterate the comments I made before this 
Subcommittee in June when I was here to testify on the 
personnel security clearance area, and that is to express my 
and all my GAO colleagues' deep appreciation for your 
exceptional record of public service. It has been a distinct 
privilege to work with you on a wide range of issues, including 
veterans' issues, radiological source issues--we completed an 
important report for you recently about that--and all the human 
capital issues that are the subject of today's hearings. We 
thank you for your dedicated service to improving government 
and we want to wish you, on behalf of all my colleagues at GAO, 
the best of health and happiness in your retirement to you and 
your family.
    Senator Akaka. Thank you.
    Mr. Dodaro. Now, turning to today's hearing, in the area of 
human capital management, we took the extraordinary step back 
in 2001 to designate strategic human capital management as a 
high-risk area across the entire Federal Government. The reason 
we did that was because of a lack of leadership and attention 
to those issues. Since then, along with this Subcommittee's 
leadership and your personal attention, Congress has passed a 
number of significant pieces of legislation that have begun to 
focus on this very important area, establishing Chief Human 
Capital Officers (CHCOs) in each Federal Department and agency, 
creating a Council of them to work with the Office of 
Management and Budget (OMB) and OPM in order to make sure that 
these issues get attention, granting greater workforce 
flexibilities in 2004, and most recently the telework 
legislation that passed in 2010. And all these pieces of 
legislation have provided more important tools and attention to 
help agencies deal with a wide range of human capital issues.
    Recently OPM also initiated a number of initiatives in the 
hiring area, the training area, workforce-life-family balance 
issues, and training programs. We have done a series of reviews 
at this Subcommittee's request and pointed out those areas 
where they have made good progress and are on track and made 
some recommendations to help make further improvements.
    Now, while great progress has been made, much more remains 
to be done and there is a lot of need for continued attention. 
Among the reasons that we have kept the human capital area on 
the High-Risk List, although we have narrowed the scope of it, 
is to focus on critical skills shortages. For example, we have 
pointed out such areas as cybersecurity, and this is 
particularly true with computer forensics and network analysis 
capabilities, the acquisition workforce, and foreign language 
capabilities. In all these areas there are existing skill gaps 
that need to be filled. It is very critical that this be done. 
And I am pleased that OPM has led a working group with the 
Chief Human Capital Officers to begin to address this issue 
governmentwide and with the individual departments and 
agencies.
    But in addition to that, right now, of the workers who were 
on the Federal payroll at the end of September 2011, 30 percent 
of them will be eligible to retire between now and 2016. And in 
some agencies, such as the Department of Housing and Urban 
Development (HUD) and the Small Business Administration (SBA), 
it is 40 percent. And also, among the Senior Executive Service 
(SES), or the career leadership, 58 percent of those 
individuals will be eligible to retire between now and 2016. So 
this is a huge challenge with already existing skill gaps. This 
also all occurs against the backdrop of enormous fiscal 
pressures for the Federal Government to get its fiscal path on 
a more sustainable basis, and that will require a lot of 
adjustments, as well.
    So attention to the strategic human capital management 
practices is more important than ever. I believe we are 
entering a crucial period now when all these issues are going 
to have to be dealt with concurrently because they are 
providing a confluence of significant challenges to the Federal 
Government. And it will be really important for the Executive 
Branch to provide good leadership in this area, and it will be 
important for Congress to carry on the legacy of this 
Subcommittee, which is to have continued attention and 
oversight to all these matters.
    GAO will be there to do its part and to support everyone in 
carrying out this important responsibility and make sure our 
government works effectively and efficiently for the benefit of 
the American people.
    So thank you very much. I appreciate the opportunity to be 
here today and look forward to your questions.
    Senator Akaka. Thank you very much, Comptroller General 
Dodaro, for your testimony, and your kind words, as well.
    Mr. Dodaro, as you mentioned in your testimony, in 2001, 
GAO identified strategic human capital management as a high-
risk area at that time. In 2011, you narrowed the focus to the 
need to identify and address critical skills gaps within the 
Federal workforce. This Subcommittee has focused on several of 
the most pressing gaps, including in foreign language skills 
and staffing of acquisition professionals and veterinarians. 
What strategies or steps would you recommend to OPM, the Chief 
Human Capital Officers Council, agencies, and Congress to 
address this high-risk issue going forward?
    Mr. Dodaro. Yes. I think that is a very important question. 
What we focused on in a number of discussions that we have had, 
both with OPM and OMB and the agencies on all the areas in the 
high-risk area to make greater progress, is the need to do 
effective planning in this area. There is a real need to 
understand the root causes of the skill gaps--why they 
occurred, the size of the skill gap, is it pervasive across the 
government, targeted to individual agencies or a subset of 
agencies, and to develop common, efficient, effective solutions 
to addressing the skill gap.
    Second, there need to be effective strategies for 
recruitment and retention on key skills in this area, including 
the assistance that OPM could provide to the agencies on 
effective use of the hiring flexibilities that are in place, 
especially special pay rates and other things that are in the 
law so they are effectively and properly used, given the legal 
parameters of those flexibilities that are in the law.
    And third, there needs to be follow up to make sure that 
they have really solved the problem, are operating effectively, 
and this needs to be a continuous process because additional 
skill gaps will occur as the challenges change over time. And 
so there needs to be a robust process in place of continual 
planning, effective development of strategies, targeted 
recruiting and retention, and then evaluation to make sure that 
the issues have been properly addressed.
    Senator Akaka. Director Berry, I would like to hear from 
you on this issue, as well. Would you please discuss the 
specific actions that OPM is taking to assist agencies in 
addressing mission critical skill gaps, as well as how OPM will 
measure progress in filling these gaps.
    Mr. Berry. Mr. Chairman, first of all, I want to turn to 
something that you and Senator Voinovich created, and that is 
our Chief Human Capital Officers Council, which is made up of 
our HR professionals across the government. And this is a case 
where that Council has really stepped up and stepped forward, 
and I want to thank Gene, and Gene, your whole team sitting 
here in the front row, who have worked so closely with us to 
help us try to get this right.
    And another friend who is not here today is Pat Tamburrino, 
who, over at the Department of Defense (DOD), led the working 
group on the Chief Human Capital Officers Council on this 
issue. And what they did first was to identify critical areas 
where we were having these skill gaps, is the first step. Just 
so you and Senator Johnson are familiar, what they ended up 
doing was identifying five occupations and three competencies 
that are strategic in terms of the overall Federal Government. 
They impact literally every Federal agency. They are IT or 
cybersecurity, as Gene mentioned; HR, human resources; 
acquisition, something every Federal agency is involved with, 
some to a much larger scale than others; program auditors, 
making sure that we can track and account for these resources 
for our taxpayers; and economists.
    All of these areas are areas that we regularly have a hard 
time recruiting. And they are areas that, when we look at the 
identification of where are those biggest retirement bubbles 
coming, some of those are in these areas that we just must 
address because they are governmentwide in nature.
    In addition to those core areas, there was agreement from 
the working group that we would also include science, 
technology, engineering, and mathematics (STEM) fields or 
functional areas. They span a number of occupations, but all 
taken together are critical to our strategic operation of our 
government.
    The three governmentwide competencies that we believe share 
across the Federal family are strategic thinking, problem 
solving, and data analysis. These are the tools that we are 
working with to make sure that as we recruit the next 
workforce, that they are rich in these talents and skills.
    Now, we are looking at this from sort of a cradle to grave 
perspective. We cannot just expect that these skills are going 
to come to us. So we are going out and working with the 
universities and working through the associations at the 
universities to see if we can work with them to help make sure 
that the graduates they are putting out have these three key 
elements to it. They are--I believe, Senator Johnson, with your 
private sector experience, you would probably agree--these are 
competencies that are critical in the private sector, as well. 
And to the extent that our universities can help by making sure 
our graduates are rich in these skills, the more effective our 
future government will be.
    Now, those are the governmentwide approaches. At the same 
time, what we have done is each of the government agencies have 
drilled down for their own unique workforce and they are to 
identify what additional skill gap areas they might have in 
their department that might not be governmentwide in nature.
    A good example of that, for example, is veterinarians at 
the Department of Agriculture. They have a very difficult time 
hiring a sufficient number. So that would be one of their 
additional skill gap areas that they would identify on their 
list, in addition to the ones identified governmentwide.
    Now that we have developed these categories, each of the 
Federal agencies has to come up with a work plan of how they 
are going to address each of these categories, both in terms of 
recruitment and retention and ongoing training. And so because 
each of these fields, especially when you think of IT and 
cybersecurity, we need to have ongoing regularized training, 
because, Mr. Chairman, as you and Senator Johnson know, the bad 
guys are always changing their game. We need to change with 
them. We need to always be at the top of our game in that sense 
from the Federal Government's perspective. And so ongoing 
training is going to be a critical element in this.
    We will be tracking each of these elements, Mr. Chairman, 
reporting them both to GAO and to the Subcommittee so that you 
will know sort of where exactly we stand, and those plans will 
come down with their metrics and their accountability, so we 
will be tracking those and reporting to you on a regular basis.
    But I am extremely grateful. I think this is a classic case 
of bipartisanship in the Congress. This is a case where we do 
not see the Government Accountability Office as a ``gotcha.'' 
We see them as a partner in helping us get this right. And they 
have really worked with us. We appreciate it. Jeff Zients at 
OMB and I have worked with Gene and his team. We take this very 
seriously. It is one of the highest priorities and we are going 
to press it. And my hope is, a year from now, we may be coming 
off that list. But that is Gene's determination.
    Senator Akaka. Well, thank you very much for your 
responses. I am so glad to hear the bells ringing in your 
statement now and the importance of partnership and of your 
work together with other departments and agencies, as well. 
This has been great.
    Mr. Dodaro, as you know, I worked to increase training for 
supervisors and employees in the Federal Government. In a study 
released on Monday examining Federal employee training, GAO 
found that, often, Chief Human Capital Officers are not 
communicating with other agency leaders. As a result, the 
agencies are duplicating certain training investments. What can 
be done to improve communication among leaders so that we are 
providing needed training without wasting money on duplicative 
training?
    Mr. Dodaro. Thank you for noting the report, Mr. Chairman. 
There are a number of recommendations that we made in that 
report, one of which is to make sure--and this is a role that 
both OPM can play as well as the Chief Human Capital Officers 
Council, and that is to share information across government as 
to what some of the common training requirements are and then 
to efficiently develop programs that could be shared and put 
online. OPM has a Web site, and there are other tools that 
could be used to do this. Online training courses are becoming 
much more common and much more efficient.
    And there is a need for common training requirements. For 
example, in the computer security area, by law, each year, 
every employee in the Federal Government is required to take 
training on computer security and to protect the information. 
There could easily be a common course developed that could meet 
the needs across the Federal Government and perhaps tailored to 
meet each individual agency.
    We also pointed out in that report within departments and 
agencies, while there is a focus on what training should be 
centralized and what training should be decentralized, there is 
not enough information overall in the department about what the 
total investment is in training in the department and agency. 
There also is a need to develop better data so that those 
investments can be prioritized properly and then evaluated 
carefully going forward.
    And so those are the recommendations that we have made. We 
will be following up on those recommendations with OPM and with 
the individual agencies. And I think this is really important, 
because we invest a lot of money. Why not make sure, just like 
everything else, that we are investing it properly and we are 
carrying out these activities that are essential in the most 
efficient manner. This is terribly important, given our fiscal 
condition right now.
    Senator Akaka. Thank you very much for your response.
    Let me call on Senator Johnson now for his questions.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Berry, let us kind of go back to the recruitment on 
universities. Can you talk to me specifically about activities 
that you engage in with the universities and colleges in terms 
of specific recruitment?
    Mr. Berry. Absolutely, sir. One of the biggest reforms that 
we have been able to accomplish, and again, under the 
leadership of this Subcommittee, was reforming how students 
could enter the Federal Government. It was a very confusing 
program. We had a lot of programs that had a lot of acronyms. 
We had the Student Career Experience Programs (SCEPs) and we 
had the Student Temporary Employment Programs (STEPs). We had 
some hours counted towards conversion and Federal service, some 
did not. It was a confusing panoply that, unfortunately, many 
of our students were just--when they were going online and 
seeing this, they would just walk away.
    Both this Subcommittee and the President said, we have just 
got to do better, and so we crafted a program called Pathways 
where we created three entry programs now for students. If you 
are in school, no matter what degree program you are in school 
with, you are an intern and you are welcome to work for the 
Federal Government while you are in school, either during your 
spring or Christmas break or your summer break. And your hours 
count towards conversion if you are doing a good job. So we 
have created that clean category. If you are in school, you are 
an intern and your hours count. We have taken away the 
acronyms.
    The second category we have made is called Recent 
Graduates, and what we were finding is--I mean, most--the 
principle behind Federal employment is that you want to allow 
the public to have open competition to be able to apply for 
positions, and what we were finding is that students, because 
the bulk of their resumes was academic work, did not have the 
work history to successfully compete through open competition. 
And so in hearings around the country and working with 
universities, the National Academy of Public Administration, 
the Society of Public Administration, and a number of the 
schools counseled us that we needed to have sort of an entry 
ability for students to get into the Federal family or they 
would not successfully be able to join and we were denying 
ourselves that talent pool.
    And so we created the Recent Graduates Program, which 
creates a 2-year window after any degree, and you have a 2-year 
opportunity where a Federal agency can hire you. You are 
competing with other students and you are competing with 
student veterans who have gone back to school, but you are not 
competing against the world at large based on work experience. 
And that then allows students to join the Federal family. And 
again, if your hours you accumulate after that 2-year period, 
if you have done a good job, you can be converted into the 
permanent civil service.
    The third is a junior management development program called 
the Presidential Management Fellowship Program. It has been 
around for a long time. It had fallen on hard times and, quite 
frankly, it had been sort of--in previous budget cuts, the 
quality of the program had suffered. We have restored that. We 
have put back a direct interview so the quality of the 
candidates is lifting up. It is a great program and it allows 
graduate-level students to join the Federal family and have 
what we call a career ladder. You would come in at a 7, but if 
you do a good job, you can be promoted to a 9 and then 
ultimately to an 11, where you can then assume management 
responsibilities. And so it is a lead program. We have about 
10,000 applicants across the country for it. We pick around 
anywhere between 600 and 1,000, depending on the year. And then 
that program is our third pathway.
    So those are the three pathways we have now created. The 
regulations are up and running. Agencies have 6 months to 
convert. I forgot to mention one thing, and that is the 2-year 
Recent Graduates Program, if you are a veteran and you have 
gone back to school and you are required to do a service 
commitment, your window can be up to 6 years. So we are trying 
to make sure we are being very careful to protect and preserve 
the veterans' preference program within these programs, and we 
are going to be following that very carefully in the data to 
make sure there is no negative impact.
    But I think wherever I go now--I have visited, I think--
well, I have lost count at this point, Senator, it has been so 
many schools where I am going out personally to State 
institutions, community colleges, whether I am speaking at a 
graduation or speaking with students and speaking with 
veterans. I always meet with the student veterans on campus. We 
always meet with the teachers and the guidance counselors, and 
then we meet with the students as a way to try to build the 
awareness and knowledge of these programs.
    But I think once the agencies get used to them, once the 
word gets out on the street, these are going to be very 
effective ways for us to take advantage of the talents coming 
out of this new generation. When you talk cybersecurity, do not 
look to my generation. We have to look to the next generation. 
They are where it is happening, and we need them.
    Senator Johnson. How many ports of entry are there to the 
Federal system? In other words, how many gatekeepers? If you 
are a student looking to start a career in the Federal 
Government, do you just go to OPM? Do different agencies have 
also ports for entry? How streamlined or how confusing is that 
process?
    Mr. Berry. Part of this reform is that all agencies would 
agree to post these opportunities on USAJOBS so that students 
can go to a one-stop shop and find out what opportunities are 
available for either internships, Recent Graduates Programs, or 
what the opportunity for PMF is.
    Senator Johnson. That is the goal. What is happening right 
now?
    Mr. Berry. That is happening now, and agencies--well, this 
program, we just issued the final regulations in July, and 
departments are now standing up their programs. And so I do not 
want to say that every agency has theirs set up yet. We have to 
certify that they have thought through veterans' preference and 
these other programs, and I think we have certified at least 15 
agencies out of the 24 major ones so far. So we are making good 
progress. My hope is that by the end of the calendar year, we 
will have everybody, and then everybody will be there 
centralized in USAJOBS and that will be the central board where 
students can go and be connected in with everything that is 
happening across the government.
    Senator Johnson. OK. I am out of time. Are we going to be 
doing a second round?
    Senator Akaka. Yes, we will have a second round.
    Senator Johnson. Well, I will wait for the second round, 
then. Go ahead.
    Senator Akaka. Director Berry, you discussed OPM progress 
on eliminating the retirement claims backlog since this 
Subcommittee's February hearing. I am pleased with the reforms 
that are underway now. However, as you know, concerns remain 
about the paper-based retirement processing model. What recent 
steps has OPM taken to address the management challenges that 
contributed to past IT modernization failures?
    Mr. Berry. Yes, Mr. Chairman. First, if I could answer both 
those questions, we have been submitting monthly to you our 
report on how we are doing on the plan that we submitted, 
worked out with the Subcommittee. You will recall that our goal 
is to get to where every retirement can be processed within 60 
days, and so that is our target, and we promised that we would 
reach that by next summer, and we mapped out how we would get 
out of the backlog of over 60,000 cases we had when we had the 
last hearing on this.
    I am proud to report we are now at 40,000 in terms of the 
backlog. We have come down 20,000 cases. And we have managed to 
stay ahead of schedule, even though retirements have been 
higher than we had originally projected in the plan. This last 
month, we got hit with a big infusion of Postal retirements, 
and our hope is that, without more surprises, we can continue 
to stay ahead on this plan.
    But so far, so good. We are on track to meet our commitment 
to you ahead of schedule. And so I am going to continue to 
drive that. It continues to be my highest priority and we will 
not take our eye off that ball.
    The other thing we submitted, you will remember Senator 
Warner, who came to the last hearing on that, also asked that 
we would supply the accuracy of the forms that we were getting 
from the agencies and whether we were getting complete files or 
not. And I promised that by September, we would be reporting on 
that, and the report that you just received shows now agency by 
agency as to the inaccuracy rates among each of the agencies in 
terms of the incomplete files that we are receiving.
    My hope is that some of the agencies that do not look so 
good in that report are going to tighten their game and greatly 
help us, because that has been one of--there have been many 
ways we have been able to drive this backlog down, but that has 
clearly been one of them, having agencies give us better files 
to start.
    On the IT strategy, because, clearly, we cannot keep going 
like we are doing. This, as Senator Johnson--as we were 
explaining during the last hearing, we are stuck in this paper-
pencil process because that is where we are in terms of the 
records we have are not automated in many cases. Some of the 
files we get have some automated data, but not all. And so we 
have this. These issues are going to be ongoing for a while.
    But because there had been so many false starts--I remember 
I promised you at that hearing we would not move forward with 
wasting more money because millions of dollars had been wasted 
in previous attempts to automate this. We have been working 
with Steve VanRoekel and the IT experts over at OMB, and Kathy 
Dillaman, who has been helping us develop this. We are 
developing an IT strategy that we will be presenting to OMB 
through the 2014 budget that, depending on our negotiations 
there, I hope to be able to look forward to presenting in terms 
of the President's budget to you, the Congress, next spring 
with an IT strategy that will have short-term, medium-term, and 
long-term approaches to how we can ultimately be where we need 
to get, which is to have this be a totally electronic process. 
It is incredibly crazy that it is not already, but we have to 
deal with reality, and getting there, this plan will lay out 
how that is going to occur.
    Senator Akaka. Director Berry, as you mentioned, my Non-
Foreign AREA Act provided Federal workers in Hawaii, Alaska, 
and the Territories with much-needed retirement equity. I want 
to thank OPM and especially thank you and your staff for your 
work in implementing it. The Act can sometimes interact with 
other laws in unforseen ways. Recently, Congress passed the 
phased retirement initiative that OPM is in the process of 
implementing. How will phased retirement interact with the Non-
Foreign AREA Act and what steps is OPM taking to prepare itself 
and the workforce for these changes?
    Mr. Berry. Mr. Chairman, as you know, we are at the tail-
end of converting from the cost of living adjustment (COLA) 
system to the retirement equity program that you put into place 
and our locality increases will now be covering that system and 
the workers in both Alaska and Hawaii will now--previously, 
Senator Johnson, those workers did not have those adjustments 
counted towards their retirement and so they were sort of 
disadvantaged when it came time to calculating their 
retirement. The Senator put in place a system to provide equity 
across all Federal employees in that regard, and we had to 
convert from that system to a new one over a period of 3 years.
    We are now on the third year of that conversion. It is 
going smoothly and our staff--and I want to thank your staff, 
Senator, for--they have been so great to work with. It is a 
very complicated situation and we could not have gotten the 
word out to retirees and active employees had it not been for 
the help of your great staff, sir, so thank you extremely much.
    But my expectation is that phased retirement should not 
affect this system because whether you are in a phased 
retirement program or a full retirement program, the 
application of the locality adjustment should be the same. So 
we are in the process now of drafting the regulations of the 
law that you recently passed, thanks to, again, your 
leadership, Mr. Chairman, of phased retirement. We thank you, 
and Senator Johnson, thank you. I think it is going to be a 
great tool in our toolbox for keeping--I think Gene would agree 
with me on this. When he talks about 50 percent of our SES 
being eligible to retire, well, we all--a lot of folks want to 
go play golf, and that is fine. Obviously, that is their right. 
But many would say, golf once or twice a week would be enough. 
I would like to work for 3 days a week still. And by giving us 
that phased retirement bill, we can now give that opportunity. 
And so we are going to be able to keep the skill set and some 
of those higher-trained workers longer through using phased 
retirement.
    We are in the process of drafting those regulations, Mr. 
Chairman. I hope to have the first round of those regulations 
issued by the end of the year, because many workers, as you 
know, in January make their decision as to whether to retire or 
not, and I would like to at least be able to put out there--the 
regulations will clearly not be finished, through the public 
comment process, et cetera, by that point, but they will have a 
good idea of how the program will run and they can then make 
their retirement decision based on whether they want to stay or 
take their option in January.
    So that is my goal, Mr. Chairman, and our expectation is 
that the adjustments should be the same regardless of whether 
they are on the phased system or the full retirement.
    Senator Akaka. Thank you very much.
    Senator Johnson, your questions.
    Senator Johnson. Thank you, Mr. Chairman.
    Let us go to the issue of hiring veterans. Obviously, I am 
pleased that the statistic has gone from 24 percent to 28.3 
percent. In my previous life as an employer, we certainly found 
hiring members of the military, veterans, were just our best 
hires. I mean, the United States military is really one of the 
finest training organizations in the world, and, of course, 
people leave there with a wonderful esprit de corps. What are 
the impediments for increasing that? I mean, is this kind of 
the high-water mark? Could we dramatically increase it? Is it a 
mismatch to job skills, lack of interest on the part of 
veterans willing to work in the Federal workforce?
    Mr. Berry. I do not think we are at the high-tide mark. I 
think a lot of it is skills translation and we have been 
working. We have a Veterans Hiring Council that we work across 
agencies with that is helping--working with DOD to translate. A 
good example is med techs. Med techs have some of the most 
amazing training on emergency medical procedures, et cetera, 
that have to be faced, and yet they come back and they are not 
certified as R.N.s or nurses because they do not have the 
academic credential.
    And so what we have been working on is programs, pilot 
programs, where we can hire them based on their experience and 
say, look, we will help you go to school part-time so that you 
can get the R.N. degree, get your certification, qualification, 
and pursue a career in this field if you like. You have a great 
start and let us help you go the whole way.
    And so some of these things, especially a lot of the 
cybersecurity issues and communications issues, need that kind 
of skill translation that can be available. Nursing is an area 
where our veterans hospitals, we are always looking for talent. 
Here is a great place where we could grow that talent by using 
our veteran corps returning, from our med techs, is a good 
example.
    Senator Johnson. Do you--
    Mr. Berry. So you are exactly right. They are phenomenally 
trained. We spend billions of dollars in training them. We 
would be damn idiots to ignore them. And so bringing them in 
has been essential. It has improved the quality of our 
workforce. What is not captured in that number--out of a 
workforce of 1.8 million full-time, 570,000 of them are 
veterans. And so it is a great contribution. They get--both our 
men and women in the civil service and our men and women in 
uniform take the exact same oath, to defend and protect the 
Constitution. This way, what we tell our veterans is, when you 
take the uniform off, you can still continue your oath and 
serve.
    Senator Johnson. And again, that half-million people is 
outside the Department of Defense? That is just other agencies?
    Mr. Berry. Yes. This is across the government.
    And one last--if I could, just one more, one last 
statistic, Gene--that I am very proud of, Senator, is we have 
also maintained a separate focus on hiring of disabled 
veterans. The disabled percentage numbers went from 7 percent 
in 2009 to 9 percent in 2011. So we have increased our hiring 
of disabled veterans over that period of time, too. So both 
numbers have gone up in terms of our veterans hiring. We are 
looking good. And that is thanks--again, to our partnerships 
with the American Legion and the Veterans of Foreign War (VFW) 
and others who have helped us get the word out, Vietnam 
Veterans, others, are working with these great people.
    Senator Johnson. Great. Mr. Dodaro.
    Mr. Dodaro. I just wanted to add that the Defense Business 
Board, which is a group of private sector individuals and the 
business community that advises the Secretary of Defense--I sit 
as an observer on the Board, they have done a study talking 
about how this area could be addressed. For example, to make 
sure that DOD's training programs are pre-certified to help 
people then get jobs when they reenter back into the civilian 
world. They provide a lot of this training--let us take, for 
example, repairing aircraft--but a lot of them are not 
necessarily in sync to be certified for activities, which means 
that when they come out of the service, they have to spend time 
getting recertified. So they are trying to bring the DOD 
programs in sync to have them pre-certified, and that, I think, 
will more easily facilitate their reentry back into the 
civilian workforce.
    Senator Johnson. One thing that I have always found drives 
performance is actually having goals. Do individual agencies 
have specific goals? Does OPM have a specific goal that is 
going to measure your success in this area?
    Mr. Berry. Yes, and in fact, the President's Executive 
Order (EO) on this has been what I think has been a very--what 
has made this program different, why we have had this wonderful 
over 4 percent increase, which is unprecedented, is because we 
took an approach that treated agencies differently. Rather than 
sort of saying, everybody have, like, a 1 percent increase, we 
said, if you are doing a great job, we are not going to ask--
you just need to keep pace. Keep doing what you are doing, and 
if you can do a little better, great.
    A good example of that is--what agency in the Federal 
Government hired the highest percentage of disabled veterans' 
hiring in the United States Government last year was not the 
Department of Defense and it was not the Department of Veterans 
Affairs (VA). It was little old OPM. We had the highest 
percentage of hiring of disabled veterans. So I am already in a 
pretty good category, and so my goal is--what I have told our 
people--let us stay or get better.
    Now, there are some--I am at a 20 percent, almost 30 
percent category of my hires, all right. So I am in that block, 
the 20 to 30 percent block. There are a number of civilian 
agencies in the below 10 percent block. What we have done is 
created a model and say, if you are in that block, you need to 
lose weight and pick up the pace, and your goal increase is 5 
percent this year. And then in the mid range, you have an 
increase of 2 to 3 percent. And then for those who are already 
doing a great job, stay there and do better.
    And that has been--we break this out. I can get you a 
report that will show you, department by department, where they 
stand, what their percentage hiring is, what their goal for the 
year is, how they are doing, and we can report on that to you. 
We now follow it that closely, sir.
    And, quite frankly, the other thing that has really 
helped--I have to say a great thanks to the President, because 
when I went to him, I said, Mr. President, we can have meetings 
on this and I can invite people to meetings, but I am getting 
the C team. We need the A team focused on this. And the 
President's response was, ``What if we have the meeting in the 
Roosevelt Room and I chair it?'' I said, that will get me the A 
team. And he did it, and it has brought that level of focus. 
When he brought every cabinet Secretary and Deputy Secretary 
into the room, it got attention, and that is what--so why has 
this happened? It has been good leadership. It has been a great 
strategic plan. It has been accountability and metrics with 
numbers. And I can get you--we can report on that for the 
record.
    Senator Johnson. OK. Thank you very much.
    Senator Akaka. Thank you very much, Senator Johnson.
    This has been a great hearing. Responses have been great. 
It is so good to hear what you have been doing, the progress 
you have made already, and the practices you have been in have 
been working out better than before. So the future looks good, 
and I am glad to hear all of this at this time.
    I want to thank the two of you for your excellent work that 
you have been doing for our country and some of these ideas you 
mentioned that we are doing. We need to press forward and try 
to carry them out and meet the need that is coming. As you both 
pointed out, in a few years, we will have huge retirements, and 
just think about that. I mean, who is going to come in and 
replace them? And we want, of course, the best that we can, so 
working with the colleges and universities is a great answer to 
that, and again, partnership with another group in the 
community.
    So this is great, and again, I cannot thank you folks 
enough for all you have done, you and your staff. It has been a 
tremendous effort and it has been a privilege for me to work 
with you. So I want to thank you very much at this time, you 
and your families, as well. It is good to have Senator 
Johnson's family here, as well, and friends and supporters. So 
thank you again and much aloha to you.
    Mr. Berry. Aloha, Senator. Thank you so much.
    Mr. Dodaro. Thank you.
    Senator Akaka. On our second panel this afternoon, we have 
Ms. Colleen Kelley, President of the National Treasury 
Employees Union; Mr. J. David Cox, the newly elected President 
of the American Federation of Government Employees; Max Stier, 
President at the Partnership for Public Service; and Mr. 
William Bransford, who is representing the Government Managers 
Coalition.
    I want to welcome all of you back, each of you. It is good 
to see you. As you know, it is the custom of this Subcommittee 
to swear in all witnesses, and so I ask you to please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Kelley. I do.
    Mr. Cox. I do.
    Mr. Stier. I do.
    Mr. Bransford. I do.
    Senator Akaka. Thank you very much. Let the record show 
that our witness answered in the affirmative.
    Let me just remind you that, as you normally do, please 
limit your oral statements to 5 minutes, and your full 
statements will be included in the record.
    I look forward to hearing from you, Ms. Kelley. Please 
proceed with your statement.

 TESTIMONY OF COLLEEN KELLEY,\1\ PRESIDENT, NATIONAL TREASURY 
                        EMPLOYEES UNION

    Ms. Kelley. Thank you very much, and aloha, Chairman Akaka. 

---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the appendix on 
page 67.
---------------------------------------------------------------------------
    Senator Akaka. Aloha.
    Ms. Kelley. It is an honor and a pleasure for me to be here 
today. As the President of the National Treasury Employees 
Union (NTEU), I am very proud to represent over 150,000 Federal 
employees in 31 agencies and departments. And on behalf of NTEU 
and all of our members, I am very sorry that this will be my 
last opportunity to testify in front of you, my good friend, 
Senator Akaka. Your advocacy on behalf of Federal employees, 
from your efforts to ensure fair pay and benefits to your 
actions to protect collective bargaining rights, will be truly 
missed.
    The Federal employees represented by NTEU are budget 
analysts, overseeing multi-billion dollar budgets. They are 
physicians undertaking cutting-edge research to cure deadly 
diseases. They are law enforcement officers guarding our 
borders. And they are scientists safeguarding our food and our 
water supplies.
    We all know that our country faces serious challenges. 
Federal employees have not been exempt from those challenges or 
immune from efforts to resolve our fiscal difficulties. NTEU 
has been very pleased to work with you, Senator Akaka, during 
your long career in the House and the Senate on so many Federal 
workforce issues, including the effort to achieve retirement 
equity that you mentioned for Federal workers in Hawaii, 
Alaska, and the U.S. Territories. Your Non-Foreign Area 
Retirement Equity Assurance Act corrected an inequity that NTEU 
members and many others had suffered for years.
    Similarly, you have long understood the Federal 
Government's need to compete with the private sector for the 
best talent. You have worked tirelessly to improve the hiring 
process and to make sure that the Federal Government employs 
the full range of workplace flexibilities that are available to 
most private sector workers. Your Telework Enhancement Act, 
signed into law in 2010, was a major step forward.
    Another of your major achievements was the Federal 
Employees Retirement System (FERS) change, permitting employees 
to include their unused sick leave when determining their 
length of Federal service for retirement. When the provision is 
fully phased in at the end of 2013, FERS employees will be 
treated the same as their counterparts in the Civil Service 
Retirement System (CSRS) system.
    Your legislation also corrected a longstanding flaw in how 
the government valued part-time service.
    Earlier this year, you held a hearing on the Office of 
Personnel Management's processing of Federal retiree annuity 
payments, which we heard about in the prior panel. You brought 
much-needed attention to the backlogs that OPM faced, and your 
hearing resulted in OPM's plan to reduce the backlog, and 
improve services to Federal employees and retirees.
    You have also championed legislation eliminating the Open 
Season for employees to enroll in the Thrift Savings Plan 
(TSP), providing retirement and financial literacy programs for 
employees, and allowing Federal employees over the age of 50 to 
make catch-up contributions to their Thrift Savings Plan 
accounts, putting them on equal footing with their private 
sector counterparts.
    And your Whistleblower Protection Act, which passed the 
Senate earlier this year, will restore and expand protections 
for Federal employees who disclose waste, fraud, or abuse in 
the Federal Government.
    NTEU also strongly supported your opposition to unfair 
changes to the Federal Employees Compensation Program (FECA). 
Your amendment to the Senate Postal reform legislation sought 
to fix a provision cutting benefits to workers who were injured 
on the job and those who are older or have family obligations. 
And NTEU also salutes your support of legislation to allow 
Federal workers with domestic partners to participate in 
employee benefit programs.
    Your career has also been marked by your leadership efforts 
to right size the Federal employee workforce compared to the 
contractor mix. NTEU has long maintained that Federal 
employees, given the appropriate tools and resources, do the 
work of the Federal Government better and more efficiently than 
any private entity.
    NTEU is also grateful for your leadership with regard to 
the Safeguarding American Agriculture Act, recognizing the 
mission of Customs and Border Protection (CBP) agriculture 
specialists in safeguarding our Nation's food and agriculture 
from foreign pests and disease.
    Finally, I commend you for your strong support for the 
rights of Federal employees to organize and to collectively 
bargain. NTEU believes that the best way to achieve agency 
missions and optimal work-life balance is for an organization 
to involve its employees, and you have always supported that.
    On behalf of Federal employees across the Nation, Senator 
Akaka, thank you for your dedication and your commitment to 
making sure that employees are treated fairly and have the 
tools they need to provide the services the American public 
expects. We were so pleased we had the opportunity to honor you 
with an award recognizing your leadership on behalf of Federal 
employees and retirees at our legislative conference earlier 
this year. It has been a distinct honor and privilege to work 
with you. Your voice will be missed, but your accomplishments 
on behalf of Federal employees will live on.
    Thank you, Senator Akaka.
    Senator Akaka. Thank you. Thank you very much for your kind 
words, President Kelley. I certainly will miss you, as well.
    Mr. Cox, will you please proceed with your statement.

     TESTIMONY OF J. DAVID COX, SR.\1\ PRESIDENT, AMERICAN 
          FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Cox. Thank you very much, Senator Akaka. It is a great 
joy and pleasure of mine for the first time that I am the AFGE 
National President to be able to testify before my favorite 
Chairman and my favorite Senator from my favorite State. But 
most of all, I am proud to represent the 670,000 Federal 
employees that work Nationwide serving this country and serving 
the American people. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cox appears in the appendix on 
page 75.
---------------------------------------------------------------------------
    As we talk today about investing in Federal employees, 
Chairman Akaka, you were the one that truly knows about 
investing in Federal employees. To get the best and the 
brightest, we have to pay a fair wage. We have to have good 
benefits. We have to have all the things that attract Federal 
employees to do a great job and to work for the Federal 
Government and to commit themselves to civil service. You have 
been the champion of that through the years, sir, and AFGE 
applauds you and thanks you for all of those things that you 
have done.
    You have stood firm when folks have said, cut Federal 
employee pay. Cut their retirement. Cut their benefits. And 
Congressman, you led the way when it came to standing firm for 
the Federal Employee Health Benefit Plan (FEHBP). You said 
``no'' a dozen times. That will not be an example or a test 
pilot for a voucher system for Medicare. And every Federal 
employee and retiree Nationwide thanks you very much for 
standing firm on those issues and thanks you for their health 
care that they receive on an ongoing basis.
    Mr. Chairman, you have been the best through the years. 
When I look at all the accomplishments that you have done, you 
have stood firm on the issues of sequestration. And I know that 
as we enter those days in the very near future that we will be 
able to count on you every day that you serve in the U.S. 
Senate.
    And I would certainly today point out to you that the 
Simpson-Bowles plan is not the only plan that is out there. 
Each time we talk about cutting Federal employee pay, cutting 
Federal employee benefits, cutting everything about them, I am 
sure everyone understands you are not going to recruit these 
folks as long as you cut. All other companies, all other 
corporations and entities in this country are trying to figure 
out how to do better by their employees, and Mr. Chairman, you 
have always been there for Federal workers Nationwide.
    And, when I look at the fact about the non-foreign COLA, 
you were the one that championed that. But also, when I look at 
the Thrift Savings Plan, there are many Federal Government 
workers that will say, thank you, Chairman Akaka, that you 
encouraged me to save for my retirement, and no one will ever 
criticize you that you made them save too much by getting in 
there and rolling automatically and moving forward with the 
escalator to eventually reach the maximum that they can 
contribute.
    I also have to say thank you, how you stood firm on the 
Transportation Security Administration (TSA), sir. You have 
always believed that collective bargaining was the right way to 
go for Federal employees and you have championed that cause 
repeatedly, over and over. And I am proud to report to you 
today that TSA is in the final stages of bargaining a contract 
that they have a dispute resolution process, and they will be 
ratifying that contract in the very near future, in a matter of 
days, sir. And it happened because of your leadership in the 
U.S. Senate and believing that the government and the public's 
best interest is served through collective bargaining.
    And not only with TSA and the whole Homeland Security, sir, 
the National Personnel Security System, MAX HR, all of those 
systems were built upon the fact of, hey, national security, 
let us destroy collective bargaining. You stood firm and said, 
no, it is about protecting Federal employees and championing 
those employees who serve this government every day with 
everything that they have.
    And, Mr. Chairman, on a personal note, my 23 years of 
service in the VA as a registered nurse, I was proud to serve 
those years, taking care of America's veterans, and you were 
always the champion of serving America's veterans. And I think 
the most applaudable legislation that I have seen passed in the 
U.S. Senate is the advanced appropriations for the Department 
of Veterans Affairs, sir. And every veteran in this country and 
their family thanks you and all the Members of Congress that 
led that charge, sir. And I would say, if we want to hire more 
veterans, more disabled veterans, create more government jobs 
for those men and women that served this country and put that 
service continuing for the Federal Government and the American 
people.
    Senator Akaka, I do not know if I am going to let OPM 
process your retirement. I may talk to Mr. Berry and say, no. 
How do I thank you for all the years of service? You are the 
best Chairman and the best Senator, and you are still from the 
best State, sir. And aloha, and I plan to come visit you often.
    Senator Akaka. Please do.
    Mr. Cox. Thank you very much.
    Senator Akaka. Thank you very much for your testimony and 
your kind words and your recollection of what we have been 
through the years. It is good for our country. And I want to 
congratulate you. I know you have worked hard all these years 
and now I need to call you Mr. President of the AFGE. I wish 
you well in your work.
    Mr. Cox. Nothing gives me more pleasure than for you to say 
Mr. President, sir. Thank you very much.
    Senator Akaka. Thank you.
    And now, Mr. Stier, will you proceed with your testimony, 
Max.

 TESTIMONY OF MAX STIER,\1\ PRESIDENT, PARTNERSHIP FOR PUBLIC 
                            SERVICE

    Mr. Stier. Thank you, Mr. Chairman. It is truly a great 
honor to be here to testify at your last hearing. When you hear 
what everyone has said, it is not just what you have done, but 
it is how you have done it that is remarkable. You are truly a 
public service hero in all respects and it has been a personal 
pleasure to have had an opportunity to work with you. I am 
confident and am filled with hope that you will keep your oar 
in the water here and continue advising folks on the critical 
issues that you have been paying attention to up until now. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stier appears in the appendix on 
page 88.
---------------------------------------------------------------------------
    I want to take this opportunity to offer a few thoughts, 
and press on three principles that I think are really important 
as we enter into the critical phase in government that we are 
in today. The first is that we need to continue the good work 
that you and this Subcommittee have started and that is being 
done right now. There is far too much of a tendency to move on 
to new initiatives and not to carry forth with those that have 
already been started. The truth is that the real returns will 
come from carrying on work that has already begun, and that 
includes the hiring reform work, where we have seen a 15 
percent drop in the time to hire. We have a ways to go, but we 
need to press forward on the work that is already being done 
and that this Subcommittee has focused on.
    Clearly, there is a critical need to bring in a new 
generation of talent to the Federal Government. What we know 
today is that about 8 percent of the Federal workforce is from 
the millennial generation. In the private sector millennials 
represent 25 percent of the workforce. We also know the Federal 
Government today only converts 6 percent of its interns into 
full-time employees, while the private sector converts 50 
percent of its interns. The government needs to do a lot of 
work to ensure that it has that next generation of talent in 
its workforce and is more in line with the private sector.
    Clearly, the issue of telework is an important one, one 
that you have championed and that I think also presents real 
opportunities for government to be better.
    The second principle I would propose is that we need to 
respond to the budget pressures that we have today. We need to 
focus on smarter and better government rather than just less 
government. That requires at least three different things.
    First, this approach requires a strategic long-term view 
about what kind of investments we need to make rather than 
across-the-board cuts, which is the tendency in most instances.
    The second is a recognition that people are really the most 
important asset in government. This is true in almost every 
knowledge-based organization. The Patent and Trademark Office 
is a good example of this. Their telework program has already 
saved $20 million and it saved it through increased 
productivity and more engaged employees, which is something 
that we should see across government.
    Similarly, the VA has been an incredible investor in the 
training of talent. They have shown over the past year $200 
million in return on investment (ROI) through the reduced 
turnover of critical talent, and $100 million in costs saved 
through their alternative dispute resolution mechanisms. This 
kind of demonstrated savings is absolutely critical. The ROI is 
very strong. We need to be able to make that case for these 
investments, because if we do not make those investments, we 
are not going to get out of government what we want.
    Third, and I would propose this is probably the more 
contentious proposition, and that is that we have had a great 
government, but to keep up with the world that we are operating 
in, we are going to need some changes, and that is going to 
involve a broader review of our civil service system.
    The third principle I want to press on is that we need to 
build on the good inside government. We will never get out of 
our government what we want if all we do is tear it down. As a 
father of young children, I know that positive reinforcement 
works a lot better than the negative and we have a lot of 
amazing things that are going on in government. The Service to 
America Medals, which we just conducted last week serve as a 
reminder of the incredible things Federal employees are doing 
within government.
    For examples. Charles Scoville, who works at Walter Reed, 
has applied sports medicine principles to veteran 
rehabilitation. He has had 1,500 veteran amputees come through 
his program. There are over 300 that have returned to active 
duty, including 55 that have returned to Iraq because of his 
work. They are doing extraordinary things like climbing 
mountains, running triathlons, and doing Ironmen.
    A second example is Susan Angell and Mark Johnston, one 
from the VA and one from HUD, and the team that they worked 
with to end veterans' homelessness. In the past year, they have 
reduced veterans' homelessness by 12 percent. This is 
remarkable given that there are a lot more veterans coming back 
and having challenges. As you can see, there are a lot of 
amazing things that are going on and we need to highlight those 
examples. We need to recognize those people and we need to 
build on their success.
    So finally, Senator, I may get this wrong but mahalo nui 
nui loa, because you deserve extra big thanks for all the 
amazing things you have done. I have been at the Partnership 
now for 11 years and you have been there from the beginning. 
Working with you has been one of my greatest pleasures, so 
thank you.
    Senator Akaka. Thank you very much, Mr. Stier, another 
President, and thank you for your work.
    Mr. Stier. A tiny one.
    Senator Akaka. Yes, well, thank you very much for your kind 
remarks.
    Mr. Bransford, would you please proceed with your 
statement.

     TESTIMONY OF WILLIAM L. BRANSFORD,\1\ REPRESENTATIVE, 
                 GOVERNMENT MANAGERS COALITION

    Mr. Bransford. Chairman Akaka, thank you for the 
opportunity to provide the views of the Government Managers 
Coalition (GMC) on the management challenges facing the Federal 
workforce. I am representing the GMC here today, which includes 
the Senior Executives Association (SEA), the Federal Managers 
Association (FMA), the Professional Managers Association (PMA), 
the FAA Managers Association (FAAMA), and the National Council 
of Social Security Management Associations (NCSSMA).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bransford appears in the appendix 
on page 98.
---------------------------------------------------------------------------
    Before addressing the areas of focus, I would like to take 
a moment to thank you on behalf of the GMC. You have been a 
champion of the Federal workforce for many years. It has been 
our pleasure to work with you and your staff. Your leadership 
on workforce issues will be missed and we wish you well in 
retirement.
    In an era of diminishing resources, it is essential that 
Federal managers and executives are given the tools to 
effectively manage the workforce. I would like to highlight a 
few of the most pressing issues facing Federal managers and 
executives.
    The first is reform of the Senior Executive Service. The 
GMC as a group has not taken a stance on SES reform. However, 
as you know, this is the signature initiative of a GMC member, 
the Senior Executives Association. SEA has several recommended 
areas of reform which appear in legislation that you have 
introduced which is pending in both the Senate--you have 
introduced in the Senate and there is a companion bill in the 
House. These include principles to restore career leadership, 
create a fairer and more transparent pay-for-performance 
management system, provide training and continuing development 
for the SES, and create diversity within the SES. Each proposal 
is outlined in more detail in our written testimony. Making 
such reforms to the SES will help all agencies recruit, 
particularly help them recruit the next generation of senior 
executives, and will help all agencies retain the best senior 
executives and ensure that they have the necessary leadership 
to successfully accomplish the missions of their agency.
    Another area of strong interest to the GMC is supervisory 
training. Often, supervisory employees are promoted based on 
their technical skills in a certain area, not management 
capabilities. Upon reaching a supervisory position, these 
employees must take on the added responsibility of managing 
complex personnel systems, conducting performance reviews, and 
dealing with performance issues, such as adverse actions. Most 
employees do not receive initial or ongoing training in the 
areas critical to effective management.
    We have worked with you, Senator Akaka, to craft the 
Federal Supervisor Training Act to require that supervisors be 
provided initial training within 1 year of promotion to a 
supervisory provision, with training updates every 3 years. The 
measure establishes competency standards to ensure the training 
is conducted effectively. Progress on supervisory training has 
been made, but the GMC continues to believe that legislation is 
necessary to ensure that proper investment into training is 
made.
    Over the past year, the GMC has grown increasingly 
concerned about the existing retirement backlog at OPM. Given 
increased use of early retirement authority and the potential 
changes to retirement benefits being considered by Congress, we 
expect the retirement numbers will continue to increase. OPM 
has made significant progress in addressing the current backlog 
and the GMC applauds these efforts. However, much remains to be 
done. We have proposed several measures to help ease the 
backlog. These are outlined in our written statement.
    The GMC also understands that OPM is working under the same 
constraints as other Federal agencies, limited funding and 
personnel directed at this issue. Resource investment is 
necessary for OPM to tackle the outstanding problems with the 
retirement processing systems.
    Of continuing concern to the GMC is the ongoing general 
exclusion of management associations from agency labor-
management forums. Regulations allow agencies to consult and 
communicate with non-labor organizations representing Federal 
employees. While the regulation does not require agencies to 
include management associations in forums, the GMC believes 
that such inclusion leads to increased effectiveness when all 
stakeholders are brought into the decisionmaking process. The 
GMC would like to see the broader inclusion of management 
associations in labor-management forums and continues to look 
for ways to work together toward more effective agency 
policies.
    In conclusion, the Federal Government is faced with 
increasingly complex problems and mandates. The Federal 
workforce is being asked to do more with less. The attention to 
these problems and the investment to address them is often 
uneven. The GMC would like to see the necessary conversation 
about the priorities of the Federal Government, what resources 
each agency needs to carry out its mission, and the tools that 
the Federal workforce needs to be effective. The GMC looks 
forward to continuing this conversation with the Subcommittee.
    Thank you very much.
    Senator Akaka. Thank you very much, Mr. Bransford, for your 
testimony.
    Mr. Bransford, you state in your testimony that progress in 
training supervisors and managers has been uneven across the 
government, and often training is the first thing to go when 
the budgets are cut. Will you please discuss why you believe it 
is important to have uniform training standards across the 
government and how this might be done in a cost effective 
manner.
    Mr. Bransford. Chairman Akaka, I think steps are already 
being taken by the Office of Personnel Management. They have 
created the HR University (HRU), where they provided some very 
significant and quality online training. And I know that 
through the CHCO Council, there are efforts being made to work 
with other agencies to share this training.
    What is lacking is an enforcement mechanism where agencies 
actually require their new supervisors to take this training, 
where it is communicated to them. Also, what is lacking is any 
effective feedback from agencies, from OPM, about how effective 
the training has been.
    I do applaud OPM for what it has done with the HR 
University. It has created a free training mechanism. I do 
believe with legislation to actually require this training, 
that it will continue to be more effective. And I think it is 
just very basic as we deal with performance management as a 
whole that supervisors learn how to do a performance 
evaluation, they learn how to deliver performance feedback, 
they learn when and how to do an adverse action when it is 
necessary, because by having this competency across the 
supervisory ranks throughout the Federal Government, it will 
make the Federal Government more effective, reduce Equal 
Employment Opportunity (EEO) complaints, reduce adverse actions 
because managers will actually manage more effectively.
    So I continue to believe, and I think the GMC does, that 
legislation is necessary, while progress has been made.
    Senator Akaka. Thank you, and thank you very much for your 
responses. It is good to hear from the trenches as to whether 
some of these programs work well. And if we can refine it and 
improve it, well, that is great. So I am glad we are moving in 
that direction.
    Ms. Kelley and Mr. Cox, last year, this Subcommittee held a 
hearing on the President's Executive Order on labor-management 
relations and the work of the National Council. As you know, I 
support labor-management forums and encouraged the President to 
issue this Executive Order. I am interested to hear from each 
of you about the feedback you have received from your members 
on the establishment of forums at the agency level. Ms. Kelley.
    Ms. Kelley. In our agencies, I would say that the majority 
of employees would say that it has gotten off to a pretty slow 
start. They are aware of the Executive Order and they, along 
with NTEU, have high hopes that we will be able to breathe life 
into this and to make a real change in how we do business. But 
we are not there yet. And it is different in every agency, and 
it definitely is about the tone that is set at the top and also 
how long it takes to get through all the layers of management. 
Much depends on the size of the agency and the structure of the 
agency.
    I think in most agencies, the commitment to it is there, 
but everybody defines it a little bit differently. We have had 
to do, in my view, more work than we should have had to on 
things like defining what is pre-decisional involvement. I 
think the Executive Order is very clear in what pre-decisional 
involvement is, and yet we struggled with it at the national 
forum level for entirely too long and we are also struggling 
with this in a lot of our agencies.
    But I do believe that the agencies know that the Executive 
Order is there and they believe that it is to be acted on. It 
is not like flipping a light switch, however, we could not just 
flip it and go back to the way things were under the old 
Executive Order under partnership, which is what some hoped 
would happen. I knew that would never happen, but in my view, 
it has just been a little slower start than I had hoped. I am 
determined that we are going to give it a kick start and 
breathe life into it because it will be a win for the agencies, 
a win for the employees, and a win for the taxpayers.
    Senator Akaka. Thank you very much. Mr. Cox.
    Mr. Cox. Mr. Chairman, I think we would also agree that it 
has been off to a slow start, and I had my first meeting with 
the national forum this morning. What I am hearing from our 
folks out in the trenches, that yes, they know about the 
Executive Order. Our locals are very much aware of it. I 
believe at agency head levels, Secretaries and those type 
levels, that, yes, there is a strong awareness of the 
President's Executive Order.
    But it seems to stop at the management careerist level, 
with the SES-ers and the higher level managers, that there is 
not the desire to embrace labor-management forums or 
partnerships--and I actually like the word ``partnership'' much 
better, because I do believe labor and management has to form a 
partnership, work together, and design and resolve problems 
cooperatively. When we have protracted litigation, very bad 
relationships, those all prove to be an expense and a deterrent 
to morale.
    So I believe strong labor-management forums, partnerships, 
can resolve a lot of that. But we also believe that it is 
moving a little too slow. We believe that there was stronger 
emphasis from the career managers, and we believe we could get 
that stronger interest from a stronger push from the top, from 
the Secretaries, Deputy Secretaries, and agency heads.
    Senator Akaka. Thank you, Mr. Cox.
    Mr. Bransford, last year, I held a hearing to examine the 
Senior Executive Service. You mentioned that in your testimony. 
Witnesses testified about the need to reform pay, hiring, 
candidate development, and also mobility. As your testimony 
notes, I introduced the SES Reform Act to address issues facing 
our government's senior managers. Of the issues covered by the 
legislation, which do you believe are the most in need of 
reform and why?
    Mr. Bransford. Mr. Chairman, I think our feedback from the 
Federal community, particularly the pipeline into the Senior 
Executive Service, is that many of the highest quality 
potential candidates are losing interest in coming into the 
Senior Executive Service and they are losing interest because 
they do not view the increase in pay and the extra work that 
they have to do to be commensurate with the risk that they take 
in going into the Senior Executive Service. There is a loss of 
interest in coming into the SES.
    Therefore, I think the two most significant parts of the 
SES Reform Act are, first, to increase the stature of the 
Senior Executive Service by requiring agencies to fill certain 
high-level positions that are positions where you would expect 
continuity and expertise with career senior executives. This 
raises the stature. It raises the visibility. And it makes the 
SES, I think, as a whole--the career SES, as a whole, more 
attractive to GS-14s and 15s.
    And I also, quite frankly, think that we have to have some 
reform to the pay system. I know that is not something people 
like to talk about at these times, but I think when Federal pay 
increases, annual pay increases, are eventually restored, for a 
fully successful performing senior executive to receive at 
least that much of an increase, to be assured of that, it takes 
away a little bit of the risk and the uncertainty about 
applying for the SES.
    And then one of the very important provisions in the SES 
Reform Act is including the performance awards as part of the 
high three calculation toward retirement. We think that is 
extremely important because that will encourage the very best 
GS-14s and 15s to apply to the Senior Executive Service, 
believing that they are likely candidates for a performance 
award that will count for and increase their annuity. It will 
provide that extra incentive to recruit the next generation of 
government leaders.
    Senator Akaka. Thank you, Mr. Bransford.
    Mr. Stier, as you testified, the Partnership for Public 
Service supports rotational experience as part of candidate 
development and entry into the SES. Will you please discuss why 
you believe diverse work experience is important to be an 
effective leader and manager?
    Mr. Stier. Thank you, Mr. Chairman. Absolutely. I think 
that one of the great conundrums for government is that most of 
the critical problems that government has to address are 
horizontal problems, but the government itself is organized 
vertically. Things like food safety or cybersecurity all 
involve multiple organizations inside the Federal Government, 
multiple levels of the government, and multiple sectors. Yet we 
have a senior career executive corps that largely understands 
only the agency they have grown up in. Ninety-two percent come 
from within government, four out of five come from within the 
same agency, and only 8 percent actually move agencies once 
they become an SES member.
    I believe that the way to promote the kind of integration 
that we need in government, the kind of collaborative activity, 
is to have more people who have experienced multiple 
environments, multiple challenges, multiple levels of 
government, multiple sectors, and multiple agencies. I think 
the way you do that is by addressing some of the problems that 
Mr. Bransford talked about in terms of the pipeline, by 
ensuring that those folks coming into the SES have that broader 
base of experience. I think that would do more to integrate 
across government, get rid of duplication, and create more 
collaboration than any other single intervention.
    Senator Akaka. Thank you.
    Mr. Stier, as we have discussed, the media and some Members 
of Congress spend a lot of time pointing out what is wrong with 
the government. The Partnership plays an important role, not 
only pointing out what is right in government, but also in 
working with Congress and others to find solutions to problems 
that do exist. What resources can we use to find more examples 
of what is going right as well as best practices that could and 
should be emulated?
    Mr. Stier. Mr. Chairman, I would offer two thoughts on that 
score, and thank you for raising this issue. It is striking. We 
have a great architecture in the media, and even within 
government to identify things that are wrong yet we do very 
little in terms of identifying what is right that can be built 
on and can be spread.
    So the two thoughts I would offer would be, first, when you 
look at the Inspector Generals (IGs), they focus nearly 
exclusively on finding those things that are wrong. It is 
terrific to find things that are wrong if we can fix them, and 
one way you fix things is finding things that are right that 
you want others to emulate. GAO has started the practice of 
including a best practices part of their portfolio. If Congress 
actually directed IGs to do the same kind of thing, I think 
that would actually improve the effectiveness of government. It 
would help identify things that are going well and can be 
applied elsewhere in government.
    The second area that I think we really need to focus on is 
internal communications. I mentioned the Service to America 
Medals program. Everybody who was in that room on Thursday 
evening of last week walked away just floored by the incredible 
things that the Federal workforce had done. They walked away 
saying, I wish more Americans knew these stories. I share that 
view, but I also wish that more Federal employees knew it. I do 
not think we focus as much on internal communication, inside 
the Federal Government, as we need to.
    When I talk to folks from great organizations outside the 
government, they tell me their organizations spend a lot of 
time making sure that their employees really understand what is 
going right inside their organization. I would love to see more 
of that activity in the Federal space, as well. Thank you.
    Senator Akaka. Thank you very much for your response.
    Ms. Kelley, I am a longtime advocate of financial literacy 
and believe it is important to give people the tools they need 
to be financially responsible. As you know, I introduced the 
Save More Tomorrow Act, which will encourage Federal employees 
to add to their retirement savings by automatically increasing 
TSP contributions to receive full agency matching. Employees 
could also opt out at any time, as well. How do you believe my 
bill could impact your membership's ability to increase their 
retirement security?
    Ms. Kelley. I think it would be a big help to many because 
I think, too often, employees just do not think about 
retirement until they are planning it, and by then, it is a 
little too late. Getting into the habit of saving for 
retirement is critical. And often you think, well, next pay 
period, maybe I can afford to do it, or maybe next month, I can 
afford to do it. But with your legislation, increased savings 
would become automatic. It would let employees see what happens 
when it becomes automatic and then they could make a conscious 
decision if that just does not work for them right now.
    So I think it is really kind of a best of both worlds 
scenario and will really put saving for retirement in the 
forefront for them, something that a lot of people might not 
even pay attention to until they are 50 or 60 years old. And by 
then, they have missed the opportunity that your legislation 
would create for them.
    Senator Akaka. Does anyone else have any comment to make 
about that? [No response.]
    Well, Mr. Cox, it is my understanding that AFGE and the 
Transportation Security Administration recently completed 
bargaining on a new contract and that it will be submitted to 
employees for ratification next month. I would like to hear 
your thoughts on the bargaining process with TSA and how, if 
ratified, the new contract will benefit TSA, its employees, and 
the public.
    Mr. Cox. You are exactly right, Mr. Chairman. The contract 
will go out for ratification the first of October. The 
bargaining with TSA, it has been a brand new experience because 
it has been different rules than what we have bargained 
contracts in the past. But we have successfully bargained the 
contract.
    I think that it will improve many things. I think it 
provides for employee input into the workplace, a way to 
resolve workplace disputes, which there is nothing wrong with 
workplace disputes. We need a mechanism to resolve those types 
of issues so that people can go on with the work that they need 
to do. There are provisions that deal with uniforms, parking, 
those types of issues, which are very big issues to employees. 
Many of the Transportation Security Officers (TSOs) work in 
very large hub airports where parking and those types of things 
are a real issue and a real concern.
    The one thing that I have valued the most from the 
negotiations is the dedication of the officers themselves and 
to the job that they do. They realize they are the front line 
defense of this country every second of every day. We have all 
seen what can happen in the past, and these men and women are 
so dedicated to the work that they do. And with bargaining a 
contract, there were many issues that they just believed that 
were pretty routine. I am supposed to always be available for 
work, to do a great job no matter when. And it was kind of 
amazing to see the dedication that these employees have to 
protecting this country 24 hours a day.
    But we are very excited about the contract, looking forward 
to completing the ratification and getting it implemented and 
showing that a unionized workforce is an absolute best 
workforce for protecting this country, just like the men and 
women that went to the top of the World Trade Towers on 
September 11, sir. Thank you very much.
    Senator Akaka. Well, thank you so much for your efforts 
because that has been a problem for me, personally, too, with 
the TSA. And so I am glad we have come this far now and it 
looks as though it can work out well for TSA, as well. So thank 
you so much for your efforts.
    And I want to thank all of you for what you have been doing 
all of these years. You have made a tremendous difference, and 
your organizations, also, have made a difference in the 
workforce. As you know, on the prior panel, we talked about the 
number that will be retiring, and so we need to look at how we 
can bring into the workforce employees that can really help our 
government. So we are going to have to work on that together 
and look forward to you and all of us trying to do our best in 
that effort.
    So I want to thank all our witnesses today for your 
testimony and for all the work you have done with me and with 
this Subcommittee. I want to thank you and your staff as well 
as my staff and the staff for Senator Johnson and other staffs 
that have worked with us from other Members, as well, to carry 
on the work that we needed to do in these areas.
    As I stated earlier, it has been a great honor for me to 
serve as Chairman of this Subcommittee and I hope that some of 
the things we have accomplished together have helped to move 
our government and our country forward.
    I also want to encourage our witnesses, along with future 
Members of this Subcommittee, to continue to work together so 
that the Federal Government can be the employer of choice in 
our country.
    The hearing record will remain open for 2 weeks for Members 
to submit any additional statements or questions.
    And again, I want to wish you all well in your work. I know 
the future is exciting and we need to continue to do the best 
we can for the workers of our country because they are the ones 
that deliver and produce what the country needs and we need to 
take care of them and get the best that we can in our country, 
and so we can continue to work on this together.
    Again, I want to wish all of you well in all that you do. 
Thank you again. Mahalo nui nui loa. Again, God bless you folks 
and our great country and its future.
    This hearing is now adjourned.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
